<html>
<title> - POLICING CAPITAL SITES: IMPROVING COORDINATION, TRAINING AND EQUIPMENT</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]




 
 POLICING CAPITAL SITES: IMPROVING COORDINATION, TRAINING AND EQUIPMENT

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 21, 2006

                               __________

                           Serial No. 109-166

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
29-334                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
CHRISTOPHER SHAYS, Connecticut       HENRY A. WAXMAN, California
DAN BURTON, Indiana                  TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
GIL GUTKNECHT, Minnesota             CAROLYN B. MALONEY, New York
MARK E. SOUDER, Indiana              ELIJAH E. CUMMINGS, Maryland
STEVEN C. LaTOURETTE, Ohio           DENNIS J. KUCINICH, Ohio
TODD RUSSELL PLATTS, Pennsylvania    DANNY K. DAVIS, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
JOHN J. DUNCAN, Jr., Tennessee       DIANE E. WATSON, California
CANDICE S. MILLER, Michigan          STEPHEN F. LYNCH, Massachusetts
MICHAEL R. TURNER, Ohio              CHRIS VAN HOLLEN, Maryland
DARRELL E. ISSA, California          LINDA T. SANCHEZ, California
JON C. PORTER, Nevada                C.A. DUTCH RUPPERSBERGER, Maryland
KENNY MARCHANT, Texas                BRIAN HIGGINS, New York
LYNN A. WESTMORELAND, Georgia        ELEANOR HOLMES NORTON, District of 
PATRICK T. McHENRY, North Carolina       Columbia
CHARLES W. DENT, Pennsylvania                    ------
VIRGINIA FOXX, North Carolina        BERNARD SANDERS, Vermont 
JEAN SCHMIDT, Ohio                       (Independent)
BRIAN P. BILBRAY, California

                      David Marin, Staff Director
                Lawrence Halloran, Deputy Staff Director
                       Teresa Austin, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 21, 2006....................................     1
Statement of:
    McKnight, Rear Admiral Terence, U.S. Navy, Commandant, Naval 
      District Washington; Major General Guy C. Swan III, U.S. 
      Army Commanding General, Military District of Washington; 
      Joseph W. Trindal, Regional Director, National Capital 
      Region, Federal Protective Service; and Michael D. Fogarty, 
      assistant chief of police, U.S. Park Police................    10
        Fogarty, Michael D.......................................    33
        McKnight, Rear Admiral Terence...........................    10
        Swan, Major General Guy C., III..........................    20
        Trindal, Joseph W........................................    31
Letters, statements, etc., submitted for the record by:
    Cummings, Hon. Elijah E., a Representative in Congress from 
      the State of Maryland, prepared statement of...............     9
    Davis, Chairman Tom, a Representative in Congress from the 
      State of Virginia:
        Prepared statement of....................................     4
        Prepared statement of Chief Ramsey.......................    43
    Fogarty, Michael D., assistant chief of police, U.S. Park 
      Police, prepared statement of..............................    36
    McKnight, Rear Admiral Terence, U.S. Navy, Commandant, Naval 
      District Washington, prepared statement of.................    13
    Ruppersberger, Hon. C.A. Dutch, a Representative in Congress 
      from the State of Maryland, prepared statement of..........    57
    Swan, Major General Guy C., III, U.S. Army Commanding 
      General, Military District of Washington, prepared 
      statement of...............................................    23


 POLICING CAPITAL SITES: IMPROVING COORDINATION, TRAINING AND EQUIPMENT

                              ----------                              


                         FRIDAY, JULY 21, 2006

                          House of Representatives,
                            Committee on Government Reform,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10 a.m., in room 
2154, Rayburn House Office Building, Hon. Tom Davis (chairman 
of the committee) presiding.
    Present: Representatives Tom Davis, Cummings, Watson, 
Ruppersberger, and Norton.
    Staff present: Larry Halloran, deputy staff director; John 
Hunter, counsel; Andrea LeBlanc, deputy director of 
communications; Shalley Kim, professional staff member; Teresa 
Austin, chief clerk; Michael Galindo, deputy clerk; Kim Trinca, 
minority counsel; Earley Green, minority chief clerk; and Jean 
Gosa, minority assistant clerk.
    Chairman Tom Davis. The committee will come to order.
    The primary obligation of any government is the safety and 
security of its citizens, and we've been acting on many fronts 
to fulfill that obligation. Our region faces unique challenges 
when it comes to planning and implementing security measures. A 
multitude of local, State and Federal agencies need to work in 
unison. Today it's our hope to examine the extent to which that 
coordination is working and where it needs to be improved.
    As the Federal seat of government, Washington, DC, is 
unique in that it houses the executive, legislative and 
judicial branches and many independent agencies. Washington is 
home to many national landmarks and key operational facilities 
like the Washington Monument, the Capitol and the Navy Yard. 
Not only do we have the Federal work force at these sites, many 
thousands of visitors come to visit these landmarks. In 
addition, Washington is a city that has people living in it. It 
has neighborhoods, and it needs law enforcement protection just 
like any other major city.
    In 1997, Congress adopted the National Capital 
Revitalization and Self-Government Improvement Act, which in 
part authorized the District of Columbia Metropolitan Police 
Department and 32 Federal law enforcement agencies to enter 
into cooperative agreements to assist in carrying out crime 
prevention and law enforcement activities in the District of 
Columbia. Those agreements could cover such activities as 
Federal law enforcement agency patrolling areas in D.C., 
sharing and donating equipment and supplies, operating on 
shared radio frequencies, and Federal agency processing and 
papering of suspects they arrest in the District of Columbia. 
As a result, today we have a situation where many secure 
Federal sites are operated and protected by Federal police 
units.
    The Government Accountability Office recently reported that 
agencies found it difficult to measure initiatives to improve 
security and that resources were scarce. GAO stated, ``Given 
their competing priorities and limited security resources, U.S. 
Federal agencies could benefit from specific performance 
measurement guidance and standards for facility protection to 
help them address the challenges they face and to help ensure 
that their physical security efforts are achieving the desired 
results.''
    While sites such as the Capitol and the White House are 
well guarded, there are many other high-level and sensitive 
targets that, if attacked, could result in loss of life and 
serious damage to property and national prestige. September 11, 
2001, confirmed the Nation's Capital as a terrorist target. 
Those who wish us harm have demonstrated their perverted 
preference for high-profile targets of both operational and 
symbolic value. As we harden some targets, they shop for 
others. We need to remain vigilant and continue to improve 
facility security here.
    Despite clear progress, it appears more needs to be done. 
According to a January 6, 2006, Washington Post article, the 
Navy police lacked basic training, equipment and critical 
resources in protecting the public and secure sites. Officers 
were reported complaining about incidents of carrying 
unworkable police radios and armor-piercing ammunition used in 
service weapons but inappropriate, even dangerous, in a 
civilian security mission. We were told the Navy has been 
working to address these issues, and we look forward to hearing 
the testimony on the status of those efforts.
    The committee is dedicated to fostering greater efficiency 
and coordination among the Federal police units and District of 
Columbia Metropolitan Police Department. The Federal law 
enforcement agencies share responsibility with the Metro force 
for protecting the Federal facilities of the Nation's Capital. 
The critical nature of this joint mission and the shared 
responsibility of a myriad of agencies demand an unprecedented 
degree of cooperation and coordination between traditionally 
independent public safety agencies which may not be trained or 
resourced for that critical joint mission.
    This coordination becomes all the more important now that 
the Metropolitan Police Chief has declared a ``crime 
emergency'' in the District as a result of a sudden increase of 
serious crimes after a steady reduction in crime rates. 
Protection from street crimes and terrorism demands a 
coordinated and comprehensive response.
    This morning, we have representatives from four Federal law 
enforcement agencies that share in providing law enforcement 
services in the District: the Navy Police Division-Naval 
District Washington, the Army Military District of Washington, 
the Federal Protective Service and the U.S. Park Police. We 
expect to receive information that will enable us to assess the 
current readiness of each of these units and the level of 
coordination in their core law enforcement missions. We expect 
each witness to provide information concerning the agency's 
security force, including training and technologies used to 
secure and protect Federal facilities, coordination of security 
efforts within and among agencies to improve or enhance site 
security, and impediments that make it difficult to maintain 
increased security at Federal facilities.
    [The prepared statement of Chairman Tom Davis follows:]

    [GRAPHIC] [TIFF OMITTED] T9334.001
    
    [GRAPHIC] [TIFF OMITTED] T9334.002
    
    Chairman Tom Davis. I would now recognize Ms. Norton for an 
opening statement.
    Ms. Norton. Thank you very much, Mr. Chairman.
    I very much appreciate your willingness to hold this 
hearing on Federal police forces that I requested and hope that 
before the end of this congressional session, other hearings I 
have requested, particularly hearings on the Office of the U.S. 
Attorney and another on the District's structural imbalance, 
can be held. I particularly appreciate your willingness to add 
the U.S. Park Police to the panel today in light of the 
emergence of crime on the Mall.
    Among the least well known and least understood police in 
the United States are the civilian Federal police forces that 
police our most secure Federal facilities. The police that 
guard Defense Department facilities such as the Army or Navy 
bases, for example, are not military police but civilian 
police. The most secure facilities in the United States, some 
of them particularly vulnerable terrorist targets such as 
nuclear facilities, are guarded by civilian police.
    The District of Columbia and the National Capital Region 
are laced with many secure facilities that depend on these 
civilian Federal police. Although they guard very high-value 
targets, they have been virtually forgotten in the rush to 
secure the more obvious targets, such as the Congress and the 
White House.
    Precisely because these well-known targets are so well 
policed and secure, however, other targets have become more 
vulnerable. For example, the District alone has six military 
installations within its borders. Among them is the newly 
renovated Navy Yard, home of the Naval Sea Systems Command, one 
of the most technologically advanced secure agencies. This 
facility is policed by Naval District Washington, a civilian 
police force that is also responsible for other secure 
facilities, among them the National Geospatial Intelligence 
Agency and the Anacostia installation and the Naval 
Observatory, which includes the Vice President's residence, and 
the top secret research facility at the Patuxent Naval Air 
Station in southern Maryland.
    I had a special interest in the Naval Sea Systems Command 
since I worked to help bring the agencies to the Navy Yard 
instead of a planned relocation to California.
    My interest was piqued by a Washington Post article that 
the chairman has described, describing complaints from Naval 
District police officers about malfunctioning radios, 
substandard equipment and armor-piercing bullets borrowed from 
military supplies that are highly unsuitable for use guarding a 
civilian facility in an urban area.
    After meeting with the Command and the officers, it became 
clear that the issues were not peculiar to the Naval District 
Police. The civilian police across the country are not treated 
as coherent assets that must be coordinated for maximum effect 
but appear to operate like little-noticed stepchildren, 
notwithstanding their training and police background.
    The value of the police who guard the most secure 
facilities nationwide is underestimated. The country can ill 
afford to continue to regard these valuable police forces with 
just passing attention of the kind they received before 
September 11th. Without a great deal more resources but with 
more attention, information-sharing equipment and especially 
coordination, these civilian police throughout the United 
States can become a true post-September 11th asset, linked to 
other forces with similar responsibilities. In today's public 
safety and security conscious environment, these police forces 
are too valuable to be left outside the circle of our national 
strategy to secure our country and to assure public safety.
    I welcome today's witnesses and look forward to their 
testimony. Thank you again, Mr. Chairman.
    Chairman Tom Davis. Thank you.
    Are there any other Members who wish to make statements?
    Ms. Watson.
    Ms. Watson. Thank you, Mr. Chairman, particularly for 
holding this most important hearing on the authority of the 
police units in our Nation's Capital and nationwide.
    Adequate attention for essential security forces used to 
protect Federal facilities is a part of the many steps this 
Congress must take in helping improve our homeland security, 
and the fact that we have seen a threat to tourism in the last 
few days indicates that we are lagging in the kind of security 
we need to give to our Federal sites within the local 
environment.
    Since September 11th, lessons we have learned here in 
Washington preparing for natural disasters means there are 
State and local first responders that possess valuable real-
world experience, experience that can be a value to other 
States and communities across the Nation as they seek to 
develop terrorism response plans of their own.
    This is not to imply that response plans developed for 
natural disasters can be used in a cookie-cutter approach to 
respond to terrorist attacks. Preparation for a response to a 
terrorist incident has its own unique needs, and our Federal 
police forces should have the skills and training to protect 
our homeland. The Federal Government still needs to conduct a 
comprehensive threat and risk assessment for all Federal police 
units.
    The administration has proposed large increases in homeland 
security funding without objectively assessing the best way to 
spend those funds. I hope to work with my colleagues on this 
committee to persuade the administration to conduct a 
comprehensive national coordination and training assessment for 
all of our police forces, and I want to thank all of you for 
your willingness to come and testify in order for us to 
understand the dire need for law enforcement agencies to 
receive the proper training and funding in order to protect our 
Nation.
    This committee, I am sure, will do everything in its power 
to help provide all of you with the proper funding to fight and 
protect America's homeland and particularly our memorial sites 
here in the Nation's Capital and protect the people who come to 
America to see the greatness of this country. So I want to 
encourage you to please continue your diligent efforts in 
protecting our America.
    I thank you, and I yield back, Mr. Chair.
    Chairman Tom Davis. Thank you very much.
    Mr. Cummings. Mr. Chairman, I have a very brief statement.
    Thank you again for--I just join my colleagues in thanking 
you, Mr. Chairman, for working with Ms. Norton to bring about 
this hearing.
    In the wake of the September 11th terrorist attack on the 
Pentagon and the anthrax attack on the Hart Senate Office 
Building, I think we all can agree on the need to provide our 
residents, workers and visitors with the utmost protection. The 
reality is that the District of Columbia is a terrorist target, 
and we must protect it.
    It appears that inefficiencies exist in the NCR police 
program. There are over 50 Federal police forces with 
jurisdiction over the District, ranging from the Library of 
Congress force, which patrols the area surrounding its 
building, to the National Park Service, which covers thousands 
of acres. To better coordinate Federal police forces, Congress 
in 1997 enacted the Police Coordination Act of 1997 as a part 
of the National Capital Revitalization Self-Government 
Improvement Act. Under the law, 31 agencies were encouraged to 
establish a memorandum of understanding with the Metropolitan 
Police Department of the District of Columbia to streamline 
efforts, but, to date, only eight of those agencies have done 
so.
    This is not necessarily bad news. Some agencies were 
already working with the police department and therefore did 
not need to establish a formal MOU, but some agencies still are 
not communicating effectively and efficiently with the District 
forces. We must rectify this situation to ensure that we are 
providing the best protection to all who live and work in and 
visit the District.
    Mr. Chairman, I look forward to the testimony; and, again, 
I thank you for holding this hearing.
    Chairman Tom Davis. Thank you very much, Mr. Cummings.
    [The prepared statement of Hon. Elijah E. Cummings 
follows:]

[GRAPHIC] [TIFF OMITTED] T9334.003

    Chairman Tom Davis. Members will have 7 days to submit 
opening statements for the record.
    We will have to recognize our very distinguished panel. We 
have Rear Admiral Terence McKnight, the Commandant of the U.S. 
Navy, Naval District of Washington. Welcome. Major General Guy 
C. Swan, U.S. Army Commanding General, Military District of 
Washington. Welcome, General. Mr. Joseph W. Trindal, Regional 
Director, National Capital Region, Federal Protective Service. 
Thank you for being here. And Mr. Michael D. Fogarty, the 
assistant chief of police, U.S. Park Police. Thank you as well.
    It is the policy of this committee that all witnesses be 
sworn before you testify. So if you'd please rise with me, 
please raise your right hands.
    [Witnesses sworn.]
    Chairman Tom Davis. Thank you very much.
    Admiral McKnight, we will start with you.
    We have a light in front of you. It goes green when you 
start. It turns orange or yellow after 4 minutes, red after 5. 
We would like to try to keep that frame. Your entire statement 
was submitted into the record, and any questions will be based 
on that. Thank you very much.

    STATEMENTS OF REAR ADMIRAL TERENCE McKNIGHT, U.S. NAVY, 
  COMMANDANT, NAVAL DISTRICT WASHINGTON; MAJOR GENERAL GUY C. 
 SWAN III, U.S. ARMY COMMANDING GENERAL, MILITARY DISTRICT OF 
  WASHINGTON; JOSEPH W. TRINDAL, REGIONAL DIRECTOR, NATIONAL 
  CAPITAL REGION, FEDERAL PROTECTIVE SERVICE; AND MICHAEL D. 
      FOGARTY, ASSISTANT CHIEF OF POLICE, U.S. PARK POLICE

           STATEMENT OF REAR ADMIRAL TERENCE McKNIGHT

    Admiral McKnight. Chairman Davis and members of the 
committee, good morning. I'm Rear Admiral Terence McKnight, 
Commandant of the Naval District Washington.
    The Naval District Washington is one of seven major regions 
in the continental United States, all of which fall under the 
command of the Commander, Navy Installations Command. The 
mission of each region is to sustain fleet combat readiness 
through effective and efficient shore installation management 
and support for those Navy and Marine Corps installations 
within the areas of responsibility. The Naval District 
Washington region is very large, covering parts of Virginia, 
Maryland and the District of Columbia. To manage this, the 
Naval District Washington is organized into five naval support 
activities responsible for 19 different installations. Those 19 
installations cover more than 26,000 acres. They house more 
than 400 commands and activities, including 70,000 military and 
civilian employees.
    The security force for Naval District Washington is 
compromised of approximately 660 well-equipped, well-trained 
military, government civilian and contractor employees. The 
security force is ultimately under my authority, reporting 
through a chain of command that includes an Installation 
Commanding Officer and the Naval District Washington Public 
Safety Director.
    The mission of Naval District Washington's security force 
is to secure good order and discipline within each 
installation, maintaining a safe environment for installation 
personnel to perform their assigned mission and to protect 
installation property within the installation boundaries or 
fence line.
    Naval District Washington's installation supports the Vice 
President's residence and one of our national clocks at the 
National Research Lab and Navy Test Pilot School and the U.S. 
Naval Academy, to name just a few.
    Clearly, the professionals in the Naval District Washington 
security force perform a job vital to our national security. I 
am pleased to tell you that our Naval District Washington 
security force is well trained in its important mission. All 
officers receive basic training that covers a variety of topics 
needed to their jobs, including traffic law enforcement, radio 
communication, patrol procedures, the rules of evidence, and 
the Uniform Code of Military Justice. They also attend 
sustainment training in accordance with Navy standards and are 
provided supplemental training for specialized areas as needed 
for a particular position.
    In addition, Naval District Washington Headquarters Command 
is a member of a team led by the U.S. Army that has been tasked 
by the Office of the Secretary of Defense to develop uniform 
standards, including a new trainee curriculum for the 
Department of Defense security. We stand ready to implement the 
recommendations that come from this team so Naval District 
Washington security force has the right skills to meet our 
mission.
    I am also pleased to report the Naval District Washington 
security force provides us with equipment that is needed to 
accomplish its mission. They are issued guns, batons, pepper 
spray, flashlights, handcuffs, radios and is quickly going to 
be supplied body armor.
    I am aware of some concerns expressed in the past about 
body armor, radios and bullets supplied to officers. Let me 
address these items quickly, because I believe that we have 
made a great stride and are continuing to make tremendous 
improvements in these areas.
    In the past, because of resource constraints and the demand 
of equipping our troops in Afghanistan and Iraq has placed our 
manufacturers of body armor--and our officers did not receive 
all the body armors needed. However, I can report that 90 
percent of our officers serving in the Washington, DC, area are 
with body armor today. We expect all the rest of these to be 
fitted out shortly.
    Also, in the past, not all of our radios have been 
operational. The equipment is old, and replacement parts were 
not being provided. Today, I can report that all our officers 
are supplied with operational radios that are maintained in the 
highest order.
    In addition, enterprise land mobile radio, often referred 
to as ELMR, system, a new DOD watch system has already begun to 
be deployed. It is expected by the end of 2007 these new hand-
held bay station mobile radio describer units will be placed in 
Naval District Washington. The ELMR system has the capability 
to allow us to communicate more efficiently with the law 
enforcement groups, both Federal and local.
    I am also aware of concerns about the type of ammunition 
that is used for our security force. The bullets provided are 
known as ball ammunition and have the capability of passing 
through an intended target. Another type of ammunition, jacket 
or hollow point ammunition, flattens out when it hits the 
targets, limiting its ability to pass through an object. 
However, I must report we are constrained by Navy requirements 
and the Navy supply system to use ball ammunition.
    I understand that the focus of the committee's interest 
today concerns coordination among law enforcement in the 
District. The authority of the Naval District Washington 
security force and all Naval District facilities generally is 
limited to the installation boundaries, because of our mission 
and because the Naval District Washington security force is 
under the control of a military commander.
    Despite the limits of authority, the Naval District 
Washington security force seeks to be good partners to local 
and Federal law enforcement agencies by coordinating and 
communicating with the Metropolitan Police Department and other 
Federal agencies on a day-to-day need.
    While the Naval District Washington security force did not 
have a formal cooperative agreement with the Metropolitan 
Police Department, entering into an agreement has been 
discussed and the U.S. Attorney has been working with us on 
this issue. However, the lack of formal agreement has not 
hindered our cooperation and communication.
    In addition, the Naval District Washington security force 
coordinates with the Naval Criminal Investigation Services, 
whose official business is liaison with the agencies in the 
area. Naval District Washington also participates in the 
National Capital Region Council of Governments. Additionally, I 
am the Deputy Commander of the Joint Forces Headquarters for 
the National Capital Region.
    In closing, as demonstrated by our improvements we reported 
to you earlier, Naval District Washington continues to find 
ways to support its security force so they can accomplish their 
mission within our installation. On behalf of all the Navy 
sailors and civil servants and their families, I thank the 
Congress for continuing support for all of us. I am prepared to 
answer your questions.
    Chairman Tom Davis. Thank you very much.
    [The prepared statement of Admiral McKnight follows:]

    [GRAPHIC] [TIFF OMITTED] T9334.008
    
    [GRAPHIC] [TIFF OMITTED] T9334.009
    
    [GRAPHIC] [TIFF OMITTED] T9334.010
    
    [GRAPHIC] [TIFF OMITTED] T9334.011
    
    [GRAPHIC] [TIFF OMITTED] T9334.012
    
    [GRAPHIC] [TIFF OMITTED] T9334.013
    
    [GRAPHIC] [TIFF OMITTED] T9334.014
    
    Chairman Tom Davis. General Swan.

           STATEMENT OF MAJOR GENERAL GUY C. SWAN III

    General Swan. Chairman Davis, members of the committee, 
thank you for the opportunity to discuss my command's role in 
supporting the important mission of safeguarding the Nation's 
Capital. As was pointed out, I am the Commander of the U.S. 
Army Military District of Washington, but I also am dual-hatted 
as the Commander of the Joint Force Headquarters, National 
Capital Region.
    Joint Force Headquarters-NCR, activated in June 2003, is 
the Department of Defense and U.S. Northern Command standing 
joint military headquarters in the National Capital Region. We 
are charged with important missions in the areas of homeland 
defense and defense support to civil authorities. The Military 
District of Washington is the Army component of this 
headquarters, along with the counterpart commands from the Air 
Force, Admiral McKnight's naval district and the Marine Corps.
    As part of the broad community of local, State and Federal 
nongovernmental emergency management professionals in the 
region, we would be a vital component of any response to a man-
made incident or natural catastrophe here in the greater 
Washington area. Within this context, I'd like to highlight the 
training and emerging technologies used to secure your military 
installations, our current security coordination efforts and 
the security posture at our regional military bases.
    The complex task of deterring enemies, defeating attacks, 
ensuring continuity of government and military operations as 
well as mitigating the effects of natural or man-made 
catastrophes cannot be done by the Army alone, by the military 
alone or even by the government alone. In my view, it's all 
about unity of effort at the local, Federal, State, civil and 
military levels.
    In the past year, we've made great strides in aligning our 
service command partners, the Military District, Naval 
District, Air Force District of Washington, the Marine Corps 
National Capital Region Command and Coast Guard District 5. 
With their full participation and in consultation with our many 
interagency partners, the State National Guards, NORTHCOM, we 
have mapped out a direction that increases our value within the 
emergency management community of the region.
    JFHQ-NCR's daily interaction with Federal, State and local 
agencies, nongovernmental organizations, numerous jurisdictions 
and even the private sector enables the command to execute 
missions seamlessly when needed.
    We have established a strong working relationship with all 
law enforcement organizations, including active participation 
in the Metro Washington Council of Government Police Chiefs 
Committee. We communicate daily with a host of law enforcement 
agencies and first responders, and through our Joint Operation 
Center at Fort McNair we share valuable information needed to 
maintain regional situational awareness and conduct planning. 
We are ready and able to provide trained military police, 
military working dogs and other equipment when directed to do 
so in support of civil authorities and have done so on numerous 
occasions.
    This day-to-day relationship building provides the command 
with timely and relevant information critical to our mission of 
being the eyes and ears of DOD and NORTHCOM in and around the 
Nation's Capital. As a result, the command maintains constant 
awareness of the likely needs of our civil agency partners in a 
potential crisis or emergency.
    Anticipation of local and State requirements are one of the 
key lessons learned from last year's Hurricane Katrina 
response. These lessons have also been applied to our critical 
role in supporting the frequent national special security 
events [NSSEs], that occur in the NCR. For example, during 
January's Presidential State of the Union Address, we provided 
over 2,000 military personnel from all of the armed services 
and a host of military capabilities to the U.S. Secret Service 
in its role as the principal Federal agency.
    Likewise, our participation in exercises, training events 
and conferences with the Metro Washington Council of 
Governments, the regional congressional delegation, the Joint 
Federal Committee and the DHS Office of National Capital Region 
Coordination has furthered the kind of understanding, trust and 
personal relationships that will pay off in a crisis.
    In fact, one of our most successful strategic initiatives 
has been assisting the region with the integration of training 
and exercises. For example, we saw an opportunity to apply our 
inherent experience with multi-echelon military training 
exercises to help coordinate training across the region.
    By teaming with DHS and the COG, we've developed an 
organization and process to synchronize regional training and 
exercises now known as the NCR Training and Exercise 
Consortium.
    Last year, during Exercise Capital Shield, we partnered 
with local, Federal and State teammates to rehearse homeland 
defense functions and procedures in a scenario that included a 
number of Virginia, Maryland and D.C. jurisdictions and 
agencies. Using live and virtual training techniques, immediate 
response, Incident Command and Unified Command procedures were 
exercised. Agency capabilities were integrated and 
communications interoperablity were streamlined. We will do all 
this again in December.
    We are intent on improving information sharing and have 
developed a customer-focused approach through our command and 
control architecture. We recently activated a virtual private 
network linked to USNORTHCOM and have built associated portal 
tools. We have improved our land mobile radio posture that 
Admiral McKnight discussed earlier and continue to improve our 
already solid communications interoperatability with local and 
State and Federal first responders. The successful fusion and 
exchange of mission-critical information enables us to know 
what's going on and what's needed to get the job done.
    Our world-class Operations Center enables the command to 
stay fully abreast of day-to-day activities of city, State, 
county and Federal agencies across the region, using a variety 
of DOD, local and civil communications means.
    As the Commanding General of the Military District of 
Washington, I also serve as the Senior Commander for Fort 
Hamilton, Fort Meade in Maryland, Fort Myer, Fort McNair here 
in the District, Fort Belvoir and Fort A.P. Hill. Providing 
day-to-day installation management on these bases is a big part 
of the job but so is safeguarding them so they can be used in a 
response platform in the need of an emergency. Therefore, anti-
terrorism force protection of all of our bases is imperative, 
and currently the Department of the Army and the Department of 
Defense provide adequate resources to ensure the safety and 
security of our installations.
    In summary, the Soldiers, Sailors, Airmen, Marines, 
National Guardsmen and civilians of this command represent an 
energetic and forward-looking joint and interagency and local 
team player focused on safeguarding the National Capital 
Region. We'll be ready to respond in case of an emergency, and 
I want to thank the members of the committee and the Congress 
in general for the support you continue to give all of our 
warriors. Thank you.
    Chairman Tom Davis. General, thank you.
    [The prepared statement of General Swan follows:]

    [GRAPHIC] [TIFF OMITTED] T9334.015
    
    [GRAPHIC] [TIFF OMITTED] T9334.016
    
    [GRAPHIC] [TIFF OMITTED] T9334.017
    
    [GRAPHIC] [TIFF OMITTED] T9334.018
    
    [GRAPHIC] [TIFF OMITTED] T9334.019
    
    [GRAPHIC] [TIFF OMITTED] T9334.020
    
    [GRAPHIC] [TIFF OMITTED] T9334.021
    
    [GRAPHIC] [TIFF OMITTED] T9334.022
    
    Chairman Tom Davis. Mr. Trindal, thank you for being with 
us.

                 STATEMENT OF JOSEPH W. TRINDAL

    Mr. Trindal. Good morning, Mr. Chairman, distinguished 
members of the Committee on Government Reform. Thank you for 
inviting the Department of Homeland Security Immigration and 
Customs Enforcement Federal Protective Service for the National 
Capital Region to appear before you today to describe the state 
of our coordination, training and equipment for protecting the 
Nation's Federal facilities.
    I am Joseph Trindal, Regional Director for FPS in the NCR. 
Under the Homeland Security Act of 2002, FPS within NCR is 
responsible for law enforcement operations and protective 
security missions of about 750 Federal facilities providing 
workspace for approximately 309,000 Federal employees and 
contractors. All FPS jurisdiction Federal facilities, employees 
and visitors are protected and served through the judicious 
application of police patrol operations, physical security risk 
vulnerability analysis, intelligence management, implementation 
of proactive countermeasures, criminal investigations, 
interagency emergency preparedness as well as posting and 
performance monitoring of contract guard forces.
    Our current FPS/NCR staffing of full-time equivalent on-
board positions is 229 sworn and support employees. The FPS law 
enforcement operations and protective security missions are 
principally accomplished with 125 Federal police officers and 
inspectors. Also staffed from among these positions are certain 
specialty disciplines which include K-9 explosive detection 
teams, HAZMAT technicians, confined space tunnel operators and 
tactical emergency medical technicians. Criminal investigations 
and intelligence management is handled by special agents. The 
mission support work force is comprised of 36 positions and 
includes such functions as budget, logistics, communications, 
small purchases, human resources, training and background/
suitability clearances for contractors and the guard force. 
From among the 18 sworn command staff officers, FPS maintains 
collateral liaison assignments with the Metropolitan Council of 
Governments [COG], the DHS Office of NCR Coordination, the FBI 
Joint Terrorism Task Force and the Plans and Emergency 
Preparedness Coordinator.
    The FPS also manages a contract guard pool of about 5,700 
guards. FPS contract guard service requirements are developed 
through FPS risk vulnerability assessments, coupled with tenant 
agency requests and awarded by the FPS Consolidated Contracting 
Group. Sworn FPS senior inspectors perform as certified 
contracting officer technical representatives in managing the 
guard force contract compliance.
    All entry-level police officers and sworn inspectors are 
required to attend the 12-week uniformed training program, 
formerly called the mixed police basic, administered by the DHS 
Federal Law Enforcement Training Center with FPS oversight by 
our National Training Academy. FPS administers a 1-week pre-
basic and 2-week post-basic training for a total of 15 weeks of 
entry-level training. This uniformed training program uses an 
in-depth curriculum, covering a broad range of police and 
general investigative skills and provides the opportunity for 
trainees to develop valuable partnerships with police officers 
from other Federal agencies, including the U.S. Secret Service 
Uniformed Division, U.S. Capitol Police, Mint Police, the Park 
Police and the Bureau of Land Management, to name a few.
    All entry-level special agents attend the 10-week mixed 
agency criminal investigators training program also at FLETC.
    FPS training does not end at FLETC. Annually, all officers, 
sworn inspectors and special agents are required to 
successfully complete 40 hours of in-service training which 
includes firearms and other weapon re-qualification, legal 
updates, defensive tactics, suicide/homicide bomber 
interdiction and incident command system, to name a few.
    All firearms qualification is conducted quarterly. FPS 
officers assigned to work in the District of Columbia are 
required to successfully complete the D.C. Code enforcement 
training administered by the U.S. Attorney's Office. Our 
officers, sworn inspectors and special agents are also required 
to receive national in-service training in FLETC every 5 years.
    The NCR is the most jurisdictionally compressed FPS region 
in the country. Furthermore, the NCR faces a significant risk 
from terrorists and domestic criminal actors as well as an 
array of potential natural disasters. Nowhere else in our 
homeland is there such compression of potential targets for 
terrorism coupled with tremendous potential for broad 
destructive effect on local, State and Federal Governmental 
services as well as the local population. The situational 
conditions in the National Capital Region make interagency 
collaboration and emergency preparedness especially critical.
    In strengthening the FPS's posture as a contributor to the 
unified capabilities of NCR's emergency services community, 
FPS/NCR has sponsored three major computer simulation exercises 
involving participation by the DCEMA, Metropolitan Police 
Department, D.C. Fire and EMS, Secret Service, Park Police, the 
Washington Metro Area Transit Authority Police, Prince George's 
County Police, the Prince George's County Fire Department and 
General Services Administration, among others.
    FPS/NCR participates in a wide arrange of interagency 
exercises through our liaison with the DHS Office of National 
Capital Region Coordination and the Council of Governments. 
Thus far this calendar year alone, we have participated in 
eight joint interagency exercises, with another seven planned 
between July and September.
    FPS utilizes a wide range of technology to carry out our 
mission. Our explosive detection operation is a robust 
operation of K-9 and technological assets. FPS/NCR screens 
trucks making deliveries to certain high-risk Federal 
facilities and utilizing backscatter X-ray technology in which 
we have conducted 19,000 screenings thus far this year. Our 
Mobile Vehicle X-Ray operation is conducted jointly with the 
D.C. National Guard. At many Federal facilities, FPS/NCR 
contract guard forces conduct x-ray package of magnetometer 
screening, which has resulted in 5,517 prohibited items 
interdicted so far this year. At some high-risk locations, 
samples are being obtained from vehicles or carried items that 
are screened by explosive trace detectors.
    FPS regularly participates in mobile command vehicle 
interoperatability exercises along with MPD, DCEMA, D.C. Fire 
and EMS and a wide array of other Federal, State and local 
partners.
    In order for our officers and inspectors and special agents 
to safely and effectively accomplish their mission, we place a 
priority in obtaining the best quality equipment and training 
required to use such equipment. Matters pertaining to firearms, 
ammunition, protective ballistic vests and less lethal weapons 
are governed by ICE policy promulgated by the National Firearms 
Tactical Training Unit. Our duty sidearm is a SIG model P-229 
semi-automatic pistol chambered in the .357 caliber SIG. In 
addition to the issuance of all uniform and duty accessory 
items, each officer, inspector and special agent is issued a 
ballistic protective vest that meets or exceeds NFTTU standards 
for Level IIIA protective capability.
    A number of challenges lay ahead for FPS and NCR. One of 
the greatest challenges facing all emergency services agencies 
in our region is communications interoperatability. FPS and a 
number of our partners have the capability to overcome 
variations in radio band and frequencies for pre-planned and 
critical incidents. These systems work well and the quarterly 
exercise of our region's emergency services community mobile 
command vehicles is a huge step forward.
    In the future, we look forward to continuing our liaison 
with Federal, State and local law enforcement security and 
emergency planning entities to strengthen our collective 
efforts in this area.
    In closing, I would like to thank the members of the 
committee for your support in our efforts. This concludes my 
prepared statement. I will be pleased to answer any questions 
you may have. Thank you.
    Chairman Tom Davis. Thank you very much.
    Mr. Fogarty, thank you for being with us.

                STATEMENT OF MICHAEL D. FOGARTY

    Mr. Fogarty. Good morning, Mr. Chairman, distinguished 
members of the committee. Thank you for the opportunity to 
appear before you at this oversight hearing regarding the 
policing of capital sites. My written copy of this testimony 
has been submitted for the record.
    The U.S. Park Police has provided law enforcement services 
on the public lands of our Nation's Capital for over 200 years. 
Currently, there are 605 sworn members in the U.S. Park Police 
who serve in our Nation's Capital, the Golden Gate National 
Recreation Area, the Presidio in San Francisco, the Statue of 
Liberty and Gateway National Recreation Area in New York City. 
In the Washington metropolitan area, the force patrols over 
24,000 acres of urban parklands, including the Washington 
Monument, Lincoln and Jefferson Memorials, Lafayette Park, the 
Ellipse and the National Mall from the Capitol Reflecting Pool 
to the Potomac River.
    In addition, we patrol over 70 miles of Federal parkways 
leading into and through our Nation's Capital, including 
Baltimore/Washington, Clara Barton, George Washington, Rock 
Creek and Suitland Parkways.
    As a full-service police department, the force is 
responsible for anti-terrorism patrols, prevention and 
detection crimes ranging from homicide to drunk driving, 
quality-of-life crimes and the performance of other law 
enforcement and visitor services. Our criminal investigators 
and detectives have done an outstanding job in successfully 
closing down crimes which occur on Federal parklands and 
occasionally in other areas. For example, 3 weeks ago we 
provided valuable assistance in the recovery of the Veterans' 
Administration laptop computer that contained the personal data 
of millions of U.S. military veterans.
    The U.S. Park Police is well known for its work at high-
profile special events. These events include major protests and 
demonstrations, large events like the Fourth of July 
celebration and one-time events such as the dedication of the 
World War II Memorial. Most of these events are very orderly 
and easily policed. Others, due to their sheer size, present 
significant logistical challenges; and others result in a 
significant number of arrests. The force coordinates with and 
requests assistance from other agencies for management of these 
large events. Without the assistance from these other agencies, 
we could not maintain as safe an environment for the public as 
we currently provide.
    Our officers attend the Federal Law Enforcement Training 
Center, have done so since its founding in 1974. Our new 
officers attend basic police school for 23 weeks, receive 5 
additional weeks of training in Washington, DC, followed by 12 
weeks of field training instruction, for a total of 
approximately 10 months of training prior to performing 
independent patrols.
    Within the Metropolitan Washington area, all force 
operational commanders meet at least three times a week to 
discuss emerging crime patterns, potential terrorist threats 
and special events. The force weekly coordinates with park 
superintendents and makes recommendations for additional 
security measures. In the downtown area, additional security 
enhancements reflect the need to provide increased protection 
for the historical features of our monuments and memorials as 
well as the safety of the visitors, while still maintaining an 
open and inviting atmosphere to the public.
    We have sworn members deployed to serve with the Joint 
Terrorism Task Force, the Department of Homeland Security's 
National Operations Center, and during large special events or 
emergencies, we participate in joint operation centers. Our 
officials routinely meet with representatives of the U.S. 
Attorney's Office and other law enforcement agencies to 
coordinate operations and disseminate information of mutual 
concern.
    Our closed circuit television system consists of cameras at 
key locations around the monuments and memorials, allowing us 
to rapidly and accurately dispatch officers to emergencies and 
to review reports of suspicious activity from a distance. We 
enhance visitor safety both the Lincoln Memorial and the 
Washington Monument through the use of technology and the 
construction of new vehicle barriers.
    It is always a challenge to provide open access to our 
icons in public spaces while maintaining a secure environment. 
For years, the force has deployed significant resources in the 
fight against terrorism. After September 11, 2001, the force 
underwent a significant redeployment of sworn officers to 
augment icon protection and other anti-terrorism security 
needs. In order to use the public funds as efficiently as 
possible, the force has incorporated the use of security guards 
at the icons in Washington, DC, and at the Statue of Liberty to 
augment our police personnel performing non-law enforcement 
security functions.
    We recognize that a visible presence by the force is 
required to ensure an appropriate level of safety and security 
on the National Mall and other park areas. The President's 
budget for fiscal year 2007 requests additional funds to 
bolster the presence of the force on the National Mall to 
reflect this increased need for patrols. These additional 
officers, if approved, will increase the likelihood of 
intercepting potential terrorists and other threats and crimes 
aimed at the icons and the visitors to them. In spite of the 
redeployment, reprioritization and other actions resulting from 
the events of September 11th, we continue to perform our 
responsibilities and duties to accomplish our primary missions 
as safely and effectively as possible.
    Mr. Chairman, thank you for the opportunity to comment. 
This concludes my prepared remarks.
    Chairman Tom Davis. Thank you very much.
    [The prepared statement of Mr. Fogarty follows:]

    [GRAPHIC] [TIFF OMITTED] T9334.024
    
    [GRAPHIC] [TIFF OMITTED] T9334.025
    
    [GRAPHIC] [TIFF OMITTED] T9334.026
    
    [GRAPHIC] [TIFF OMITTED] T9334.027
    
    [GRAPHIC] [TIFF OMITTED] T9334.028
    
    [GRAPHIC] [TIFF OMITTED] T9334.029
    
    Chairman Tom Davis. I would ask unanimous consent that a 
letter from Chief Ramsey, the chief of the Metropolitan Police 
Department, be placed in the record.
    [The prepared statement of Chief Ramsey follows:]

    [GRAPHIC] [TIFF OMITTED] T9334.030
    
    [GRAPHIC] [TIFF OMITTED] T9334.031
    
    [GRAPHIC] [TIFF OMITTED] T9334.023
    
    Chairman Tom Davis. Coordination has become all the more 
important now that the Metropolitan Police Chief has declared 
this crime emergency in the city as a result of the sudden 
increase of serious crimes after we'd seen a steady reduction 
of crime rates over the past few years. Have all of you had a 
chance to talk and coordinate with the Chief since he's 
declared this crime emergency, just each of you for the record? 
Admiral McKnight.
    Admiral McKnight. No, sir. I have not personally, but we're 
always working with the Metropolitan Police Department.
    Chairman Tom Davis. OK.
    General Swan. Sir, the same here. I haven't talked to Chief 
Ramsey personally on this, but we're in day-to-day contact with 
MPD.
    Mr. Trindal. We're working very closely with Commander 
Groom of the first district in dealing with this particular 
issue and focusing our patrol areas along the Constitution 
Avenue and the Federal triangle and Foggy Bottom areas in 
concert with MPD.
    Mr. Fogarty. Chief Bedford has met with and spoken with 
Chief Ramsey, and we do continue our daily cooperation with the 
Metropolitan Police Department.
    Chairman Tom Davis. Mr. Fogarty, you don't have a specific 
agreement, do you, under the National Capital Revitalization 
Self-Government Improvement Act?
    Mr. Fogarty. No, sir, we do not. And the reason for that is 
that, since 1882, we have had the same police authority in the 
District of Columbia as the Metropolitan Police Department.
    Chairman Tom Davis. So you overlap anyway so you don't need 
separate----
    Mr. Fogarty. That's right.
    Chairman Tom Davis. In the Chief's testimony, he praises 
the level of cooperation we've seen on that. I guess what I 
would ask, you really have two different law enforcement 
functions, you have street crime and combating terrorism. They 
are different functions. So we're talking about coordinating in 
two different areas and protecting Federal facilities and non-
Federal areas. Does your agency consider it has primary 
responsibility for either type of law enforcement outside the 
territories where we have primary jurisdiction?
    Mr. Fogarty. No, sir. Our primary responsibility is within 
the National Park Service lands. If we're talking in the 
District of Columbia, we certainly support with and work with 
the other agencies, and clearly our officers make arrests on 
city streets when it is appropriate. We do not routinely exceed 
our areas of patrol other than by request.
    Chairman Tom Davis. You do have specific areas?
    Mr. Fogarty. Yes, sir. But our beats are very large. We 
have approximately 700 reservations in the city. We have our 
police officers who are patrolling constantly. They are out on 
city streets. There are many opportunities for them to take 
action, and they do so when warranted.
    Chairman Tom Davis. I think you note in your testimony 
there are 605 sworn officers.
    Mr. Fogarty. Yes, sir.
    Chairman Tom Davis. The former Chief Chambers estimates 
that the Park Police force for the entire area is smaller than 
the 400 officers that she had in 2003. Has the number of 
officers decreased?
    Mr. Fogarty. No, sir. There may be confusion; 400 may have 
been the number in the D.C. area.
    Chairman Tom Davis. OK.
    Mr. Fogarty. And that's relatively stable.
    Chairman Tom Davis. All right. So you have 605 sworn. 
That's throughout the country?
    Mr. Fogarty. Yes, sir. That includes New York and San 
Francisco.
    Chairman Tom Davis. So there's been no marked decrease that 
you are aware of?
    Mr. Fogarty. There is a slight reduction.
    Chairman Tom Davis. Is that budgetary or is that just 
caused by other----
    Mr. Fogarty. Right now, sir, we're at 605. Last year at 
this time we were at 621, but if you had gone 2 weeks earlier, 
we were at 604. It's a matter of which date you pick the 
numbers from.
    Chairman Tom Davis. OK. Obviously, you have attrition and 
you are filling and everything else. So, OK, what is your 
buildup level that you are allowed to get--do you have a number 
that you are allowed to get to if everybody's full?
    Mr. Fogarty. The number in the President's budget we're 
trying to get to is 639.
    Chairman Tom Davis. OK, let me ask all of you this, I know 
that in Fairfax County we go through--we recruit officers--most 
of our officers have college degrees. We go through training 
and sometimes they'll go work for the Federal Government 
afterwards. Do you get a lot of cross-recruiting from local 
governments where somebody else can pay the training costs and 
you can get them and vice versa? Is it a competitive 
environment to get good officers?
    Mr. Fogarty. Yes, sir. Very competitive.
    Admiral McKnight. Yes, sir. It is very competitive. It's 
very hard to maintain and retain the officers. We are 
continually hiring, but it's a very competitive----
    Chairman Tom Davis. Where would you lose your people to? 
You train them. You get them up. If they leave your service, 
where would they be likely to go?
    Admiral McKnight. They would like to go upward to the 
Metropolitan Police, to the Parks Service and things like that. 
They just like to take a step farther up.
    Chairman Tom Davis. And once you've locked them in for a 
few years, you get them into the system, but it's the young 
officers who generally leave, isn't it?
    Admiral McKnight. Yes, sir. That's correct.
    General Swan. Same for us, sir.
    Chairman Tom Davis. How about Mr. Trindal?
    Mr. Trindal. Yes, sir. It is very competitive. We strive to 
maintain a solid work force through our training, through the 
challenges that we provide for our officers. But in this area 
in particular there's an awful lot of opportunities for those 
officers to look elsewhere.
    Chairman Tom Davis. And how's the interoperatability and 
the communications between the Metropolitan Police Department 
and all of your agencies? You are on different frequencies. You 
can get--how's that work if there's an incident in the area? 
For example, you're close by. You have manpower there. How 
quick is it to call--you know, start----
    Admiral McKnight. Sir, as I addressed earlier, we are just 
a little step behind. We're going to the new radio system. We 
have some sites that are manned up. So, right now, it would 
have to be through the standard process. An officer would 
notify that there's an incident, and we would have to either 
phone--but our radio system's just a little bit behind. We 
don't have a frequency that we can talk.
    Chairman Tom Davis. Let me just add, the area down by where 
the Navy Yard is, for example----
    Admiral McKnight. Yes, sir.
    Chairman Tom Davis [continuing]. Is rapidly changing.
    Admiral McKnight. Yes, sir.
    Chairman Tom Davis. Getting more intensity. They have a 
stadium down there. Your role in working with the Police 
Department then is changing as a result of that?
    Admiral McKnight. Sir, my jurisdiction is just with inside 
the fence lines of the Naval District Washington, especially 
down on Maine Street and M Street right there. But when we 
bring on the new radio system, we'll be able to coordinate 
better with the Metropolitan Police Department.
    Chairman Tom Davis. OK.
    General Swan. Yes, sir. And the system that Admiral 
McKnight is talking about is a Department of Defense system, so 
that's already been fielded in the Army component here. The Air 
Force and the Navy are coming on later this year. It gives us--
this is a post-September 11th radio system that allows us to 
talk to civil agencies at all levels, fire protection agencies 
as well as law enforcement, but at the Command Center level--
there is a great deal of interoperatability at the Command 
Center level that we pride ourselves on.
    Chairman Tom Davis. Yeah. Key is to make sure, if you have 
officers in the area, you have assets in the area, that they 
can be redeployed in an emergency.
    General Swan. Yes, sir.
    Chairman Tom Davis. OK. Mr. Trindal.
    Mr. Trindal. Our central dispatch is at the Suitland 
megacenter, and presently we would communicate with MPD via 
telephone at this point in time. However, under critical 
incidents or preplanned incidents, we do have capability of 
cross-talking with them, using their equipment as well as other 
Federal, State and local agencies in the National Capital 
Region and our equipment cross-channeling with them.
    Chairman Tom Davis. Thank you. Mr. Fogarty.
    Mr. Fogarty. Yes, sir. With the Metropolitan, our best is 
still the old standby civil defense line. We do use that 
routinely.
    As far as our patrol supervisors also do have Metropolitan 
Police portable radios with them, and if there is an emergency 
they can switch over. Normally, we would prefer going through 
our dispatch to their dispatch because that way everyone is 
aware and not just one or two people.
    Chairman Tom Davis. Thank you.
    Ms. Norton.
    Ms. Norton. Thank you very much, Mr. Chairman.
    Could I ask first Assistant Chief Fogarty, are Park Police 
who have been pulled from other areas still working, some of 
them, on 12-hour days?
    Mr. Fogarty. Yes, ma'am. Our central district is on a 12-
hour shift. That's their normal routine patrol. It is not an 
overtime function.
    Ms. Norton. Oh, they are always--the people on patrol are 
always there for 12 hours?
    Mr. Fogarty. Yes, ma'am. That's their regularly scheduled 
patrol function. It's been that way for some time. Twelve-hour 
shifts are your most efficient man power usage. They're not 
necessarily the most effective but they're the most efficient.
    Ms. Norton. Let me understand this. When you say a 12-hour 
shift, do you mean that an officer is standing or patrolling 
for 12 hours? Or do you mean that he is doing Park Service, 
Park Police work in some fashion for 12 hours?
    Mr. Fogarty. They are assigned to the patrol function for 
the 12 hours, which includes work all the time. But most of the 
time they will be out on the street or, if they make an arrest, 
they will be back processing.
    Ms. Norton. How does that compare with police in the other 
forces? Are you on 12-hour days?
    General Swan. We're on 8-hour inside our Army 
installations.
    Ms. Norton. How about you, Mr. Trindal?
    Mr. Trindal. We're also on 8-hour shifts.
    Ms. Norton. So you are telling me on a 90-degree day that 
your officers, for example, who are assigned to the Lincoln 
Memorial are there for 12 hours?
    Ms. Norton. Yes, ma'am.
    Mr. Fogarty. Yes, ma'am.
    Ms. Norton. Why is that--since you tell me that is normal, 
the normal case, why is that the most efficient way?
    Mr. Fogarty. As far as when you look at the actual 
scheduling of personnel, when you do it on the 12-hour shifts 
you actually can deploy more personnel than you can through any 
of the other shifts.
    Ms. Norton. So it has to do with the numbers that need to 
be deployed. That's how you are getting the numbers.
    Mr. Fogarty. Yes, ma'am. And others--some of our other 
districts are on 8-hour shifts. It depends on the district.
    Ms. Norton. In the region and in the city, they're on 12-
hour days or is it only in the city?
    Mr. Fogarty. It's only in our central district. For 
instance, our Rock Creek District, which is also in the 
District, is on an 8-hour shift.
    Ms. Norton. So it is only in this area, the Mall area, that 
we have 12-hour shifts?
    Mr. Fogarty. Yes, ma'am.
    Ms. Norton. And that is in the coldest of winter and in the 
hottest of summer, people are on 12-hour shifts?
    Mr. Fogarty. Yes, ma'am.
    Ms. Norton. And you think that has largely to do with the 
numbers, need for--you can maximize your numbers that way?
    Mr. Fogarty. It's effective; and the officers, from what I 
have been told, like the 12-hour shifts.
    Ms. Norton. Twelve-hour shifts without overtime pay?
    Mr. Fogarty. That's correct.
    Ms. Norton. And they like that?
    Mr. Fogarty. Yes, ma'am.
    Ms. Norton. And why do they like that?
    Mr. Fogarty. I can't say for sure, but I think it has to do 
with the fact they have more days off at the end of the week.
    Ms. Norton. All right. You should say that. Because, 
otherwise, it's very hard to understand. It's pretty hard to 
understand.
    Mr. Fogarty. It gives them more actual time at home than 
they would have on the 8-hour shifts because the commuting time 
is cut down.
    Ms. Norton. All right. Thank you.
    You patrol the entire region. Your officers--I'm sorry--Mr. 
Fogarty, patrol the entire region, isn't that so?
    Mr. Fogarty. Yes, ma'am. That's correct.
    Ms. Norton. Would you name some of the parks, larger parks 
in Maryland and Virginia, for example--we know the ones in 
D.C.--that you're responsible for, some of the larger ones?
    Mr. Fogarty. Greenbelt Park; Fort Washington Park; Fort 
Hunt; Great Falls, VA; Great Falls, MD; Wolftrap; plus all the 
park--all the areas along the parkways.
    Chairman Tom Davis. They can give tickets along the 
parkway, isn't that right?
    Mr. Fogarty. Yes, sir.
    Chairman Tom Davis. I don't know that from personal 
experience, but some of my staff know it.
    Ms. Norton. How have you--do you still have a uniform 
presence in the Mall now until midnight when the area closes?
    Mr. Fogarty. Yes, ma'am. The Mall area is patrolled 12 
hours a day.
    Ms. Norton. I didn't ask you that. I asked you was there 
uniform presence down there all evening?
    Mr. Fogarty. Yes, ma'am.
    Ms. Norton. All right. Many of those officers are borrowed 
from other parks, is that not the case?
    Mr. Fogarty. Some of the officers have been redeployed. A 
lot of those are from the motorcycle unit, or our special 
forces branch, if they're not otherwise assigned, they would be 
reassigned to the Mall. Some of it has been done through the 
use of overtime.
    Ms. Norton. When I visited the Mall and talked with some of 
your officers, I asked them where they came from and they named 
some of the parks. Among them was Anacostia Park, for example. 
I appreciated that he was there, but it did seem to me that was 
a classic case of borrowing from Peter to pay Paul except that 
Peter has more crime than Paul does.
    I'm not blaming that on you, sir, but let me ask you, when 
is the last time you have had an increase in the actual number 
of officers?
    Mr. Fogarty. We have been relatively stable for the last, I 
would say at least the last 5 years.
    Ms. Norton. How many miles are you responsible for in the 
National Capital Region?
    Mr. Fogarty. I'm sorry, how many?
    Ms. Norton. Acres; I'm sorry.
    Mr. Fogarty. I believe it was 24,000.
    Ms. Norton. I have understood that a class for new park 
police officers was recently canceled. Is that the case?
    Mr. Fogarty. Yes, ma'am.
    Ms. Norton. Why was that the case?
    Mr. Fogarty. There was just a funding issue. At the end of 
the year we had hoped to have enough funding to staff it, and 
we did not.
    Ms. Norton. You had some increase in funding, isn't it 
true?
    Mr. Fogarty. This year it was a $100,000 increase over the 
year before.
    Ms. Norton. When is the last time you had a significant 
increase in funding, Mr. Fogarty?
    Mr. Fogarty. 2002.
    Ms. Norton. When?
    Mr. Fogarty. 2002.
    Ms. Norton. Mr. Fogarty, I don't see how you can continue 
to operate by borrowing personnel if your last increase was 
2002. How much an increase in officers was that?
    Mr. Fogarty. The actual number of increase in officers was 
not significant. It allowed us to catch up where we had been a 
shortfall in our equipment and supplies and where we had been 
basically borrowing from Peter to pay Paul at that point.
    With the cost of living increases, things like that, even 
if the budget goes up, it does not necessarily translate into 
an increase in personnel.
    Ms. Norton. So in terms of personnel, you have been stable 
even when you have had an increase in funding.
    Mr. Fogarty. We had a slight increase at that point, which 
we've been trying to maintain since then. The 2007 budget is a 
request for an actual real increase in personnel.
    Ms. Norton. But that's not through yet?
    Mr. Fogarty. It's been through the House and in the Senate 
committee, but it has not been passed yet.
    Ms. Norton. What kind of increase in the House did you get?
    Mr. Fogarty. The amount was exactly the same. It was a 
total of a $4.5 million increase, which came out to 
approximately $2.8 million that actually would have been used 
for personnel. The rest would have been basically cost of 
living adjustments.
    Ms. Norton. The Senate has not acted yet on that amount, 
but the House has allowed that amount?
    Mr. Fogarty. Yes, ma'am. The House has and the Senate 
committee has also approved that level.
    Ms. Norton. Now if in fact that passes and you said $2 
million or so can be used for personnel, how many new officers, 
approximately?
    Mr. Fogarty. The goal is to get up to 639 sworn officers by 
the end of fiscal year 2008, and again that's the problem with 
attrition. The training sites----
    Ms. Norton. From 6--to 639 by the end of 2008?
    Mr. Fogarty. Yes, ma'am. Actually, functional police 
officers. Part of that is the training cycle, and we hire them, 
they are on paper but they're really of no value to us at this 
point.
    Ms. Norton. Would they all be used here in this region, the 
National Capital?
    Mr. Fogarty. The vast majority would be assigned here to 
the Washington Metropolitan Area.
    Ms. Norton. When the first set of assaults occurred on the 
Mall there was an immediate response. I was very grateful for 
it, actually. Mr. Fogarty, I'm very familiar with the Park 
Police. You have worked on some of our really high crime areas 
because so many parks abut those areas and you are known as 
crackerjack cops who understand real criminals and have 
partnered with the D.C. Police to crack important cases, cases 
that the press writes about, drug busts and very violent 
criminals and the like. So I'm aware of your work.
    I am very concerned though about what I saw on the Mall. 
You indeed had reinforcements right after the first muggings. 
When the second set of muggings occurred, there had been about 
five police in that entire area. It was hard for me to be 
critical of it.
    It seemed to me that you have no sustained capacity to 
continue to borrow police from Maryland, Virginia and the 
District without putting areas that have greater crime rates 
than the Mall at risk. Is that not the case?
    Mr. Fogarty. Part of police work is always trying to get 
ahead of the criminals and deploy your personnel appropriately. 
This year our crime rate actually, our violent crime rate 
actually is down from last year. We've had high profiles crimes 
on the Mall and we have redeployed to try to end that problem.
    Ms. Norton. My question, and I will pass on to my good 
friend in a moment, but my question really goes to what happens 
after there are assaults like this. You see how embolden these 
people have become. The reason we are so concerned is not only 
have they assaulted visitors who have always regarded the Mall 
as what it has always been, crime free. We regard this as an 
assault on our economy because those are people that come to 
visit, and in visiting they are a major support for our 
economy.
    When--the reason I asked for, and I was very grateful for 
the uniform presence after the muggings in May, was because it 
is very hard to do what you just said, act ahead of time. 
Indeed, the Chief told me about undercover people that he was 
going to have. I said that's fine, it's very important, but if 
we want to prevent crime we not only need undercover people, we 
need uniform people who essentially send their own message, 
don't even try. It is the message they send.
    Clearly you were so hard-pressed that the uniform presence 
that might have deterred these July assaults was not possible 
to sustain. Is that not the case?
    Mr. Fogarty. We increased our coverage after the May 
assaults and then obviously after the July assaults we 
increased it again.
    Ms. Norton. And of course it retrenched after the May 
assaults.
    Mr. Fogarty. It had not reduced it from what we had 
actually assigned, but what we had done is the officers who 
were asked to go through on routine patrols, some of them were 
obviously redeployed to other areas or other assignments on a 
day-to-day basis. We did have an increase in the sustained 
increase in the number of officers assigned to the Mall area.
    Ms. Norton. Five officers is what the chief told me in that 
area. I'm very concerned about that, and I'm going to pass on 
now to Ms. Watson.
    Ms. Watson. Thank you so much. As I listen to all of you, 
we've got to focus in on Mr. Fogarty because I think that the 
problems that have been identified are occurring within the 
Park Service's jurisdiction. And listening very intently, it 
seems that you have a shortage of resources, is that true? I 
know you said you are increasing from 605 to 639 but it has not 
happened.
    Mr. Fogarty. It's been requested.
    Ms. Watson. And then I'm reading in our analysis that 
equipment is old, that it doesn't work in certain urban areas, 
and probably that you're short of the effective tools to do the 
job. Is that correct?
    Mr. Fogarty. There's some highlights in that. For instance, 
our radio system which is from the 1970's, it is in the process 
both here and New York of replacing the entire system. That is 
actually a joint operation with other Federal agencies, which 
will improve our interoperability and also our area of 
coverage.
    Ms. Watson. Now is there a dedicated line--this is to all 
the witnesses--that would go across--there are 51 services that 
provide protection, supposedly. Is there a dedicated line, a 
band that all of you could use to communicate? Does it work?
    General Swan. There is an established 800-megahertz 
standard that the Department of Homeland Security has 
established that all first responders are capable or should be 
capable of operating on. We're pretty good on that in the NCR, 
at least from the military perspective.
    Ms. Watson. Apparently it is not working as effectively as 
it should because when we talk about homeland security, if we 
cannot secure the Nation's Capital, the streets of the capital, 
we can't secure this country.
    I was appalled by the kinds of rash of crimes on the 
streets that were taking place, these foraging street gangs, 
these foraging thugs that are moving freely it appears through 
our streets, attacking people on the streets, killing some. I 
don't know how that happens.
    And I hear from you, Mr. Fogarty, that your staff works 12 
hours a day and then they have a day when they probably are in 
court, and that doesn't give them the kind of time to do the 
job effectively.
    I think what we need is an appearance of law enforcement. 
You know, I'm from Los Angeles and our colors are black and 
white, but when you park a black and white on a main street, 
that's a signal and that's a message there's somebody around 
here that is going to provide and enforce the law, so maybe I 
better not knock this store off or mug this person.
    And so I mentioned in my opening statement that we really 
need an assessment, because I hear three things; I hear that 
you really are under equipped, I hear that you don't have the 
personnel to stretch across all of these venues, and I hear 
there are plans for the future and it's all based on the 
budget.
    So we here in the Congress have a job to do, and while 
we're pumping billions of dollars in countries 10,000 miles and 
more away, if we really are serious about securing our land, 
Mr. Chairman, we're going to have to look internally.
    If we cannot protect our citizens, our visitors when they 
come to the Nation's Capital, then how can we protect our 
country. It's just verbiage.
    So I am so pleased that you're here. Don't be restrained. 
We are friendly. Eleanor Holmes Norton is the best mouthpiece 
that you have. Our Chair is the best mouthpiece you have. The 
other member from Maryland will speak up for you, but you have 
to come and let us know.
    So we're gleaning from your remarks what the story has to 
be, Eleanor. During our budget discussions we must put the 
resources in so you can do what you're expected to do to 
protect our homeland and the people on it, be they Americans or 
visitors.
    And so I want to thank you, and know, I want you to know 
that we're going to be supporting what you do because it's an 
embarrassment. Not only is it an embarrassment, it's tragic to 
know that people come here to see our historic sites and 
they're in jeopardy. That doesn't make sense.
    So we should have learned from September 11th, and we need 
to look internally and fix these problems.
    So with that I'm going to say thank you, Mr. Chairman, and 
I hope that we as a committee can make some strong 
recommendations in this regard.
    Chairman Tom Davis. Thank you very much.
    Ms. Norton, I think you have just one or two more 
questions.
    Ms. Norton. That's all I had, Mr. Chairman.
    I had not asked the other police forces, and actually it's 
you who stimulated me to want this hearing. You are among the 
Army and Navy police. First, let me ascertain, hired by--you 
notice that the Federal Protective Service is a centralized 
service and you come onto the Federal Protective Services and I 
take it get assigned to agencies, is that right, sir? Mr. 
Trindal.
    Mr. Trindal. Yes, ma'am. That's correct.
    Ms. Norton. Do your police get hired by the Department of 
Defense?
    General Swan. Yes, ma'am. Our police are hired by our 
services; our police are Department of the Army.
    Ms. Norton. So the Navy would hire and Army would hire?
    General Swan. But there are Department of Defense standards 
that we all adhere to.
    Ms. Norton. Yes, but are your police trained alongside his 
police the way the FPS police all train together?
    General Swan. They train to the same standards but in 
different facilities.
    Ms. Norton. You in Army facilities and they in Navy 
facilities?
    General Swan. We use Fort Leonard Wood, MO, which is our 
military police school, and Aberdeen Proving Ground in Maryland 
is for our Department of the Army civilian police.
    Ms. Norton. Much that you described that you do under your 
command, your description of what you do did not involve--did 
not seem to involve the police. I understand what you do but I 
did not hear from either of you how your civilian police either 
fit in or do not fit into what you do under your command.
    Admiral McKnight. Yes, ma'am. I, like General Swan, we're 
both military commanders and the police force fall under us to 
protect our installations and what is between our fence lines, 
and that's our base of where we train our people to protect, 
within our fence lines.
    General Swan. If I could expand on that, the military 
police forces of the Department of Defense are there, as 
Admiral McKnight described, for security and law enforcement 
within our DOD installations, enforcing DOD law on those 
military reservations.
    Ms. Norton. What is DOD law? If I steal something on a 
reservation.
    General Swan. The Uniform Code of Military Justice applies 
inside----
    Ms. Norton. Many of these are civilian agencies. Like the 
Naval Sea Systems Command has mostly civilians. So if somebody 
commits a felony in there, what happens?
    General Swan. There are other Federal laws that applies 
inside DOD that are also enforced.
    Ms. Norton. Go ahead.
    Admiral McKnight. Yes, ma'am. If there's a crime inside the 
Navy Sea Systems Command we would turn that over to the Navy 
Criminal Investigative Service. The police force that we have 
is to provide the perimeter security for our bases, not for 
crimes such as anything that they would commit----
    Ms. Norton. So if there was an altercation or a criminal 
act, now I'm dealing only within the facility, how would your 
police force respond?
    Admiral McKnight. They would respond as trained. They would 
go to the scene and respond just like any officer who was 
trained for those type----
    Ms. Norton. Could they make an arrest?
    Admiral McKnight. Yes, ma'am, on our installations. They 
can make arrests on our installations.
    Ms. Norton. Since it was an ordinary felony or misdemeanor 
violation of the local jurisdiction, let's say, how would that 
be processed and handled?
    Admiral McKnight. If it was a military altercation, it 
would be handled within the Uniform Code of Military Justice. 
If it's a civilian infraction then it would be handled within 
the civilian corps.
    Ms. Norton. I understand that you are talking perhaps--you, 
Admiral McKnight, are talking to the U.S. Attorney here.
    Admiral McKnight. That's correct, ma'am.
    Ms. Norton. Because you are among the agencies who have not 
signed onto the Police Coordinating Act, which allows some 
patrol around the perimeter. The whole purpose of passing this 
act by Congress was to try to keep the crime from getting to a 
particular facility. And I understand the difference between 
you and other Federal police, but you are in conversations?
    Admiral McKnight. Yes, ma'am. Last spring some of my 
lawyers had a conversation with the U.S. Attorney's Office and 
we're awaiting for their interpretation.
    Ms. Norton. Thank you very much.
    Chairman Tom Davis. I want to thank the Members for their 
questions. I want to thank you for your testimony. It has been 
very helpful to us. The hearing is adjourned.
    [Whereupon, at 11:18 a.m., the committee was adjourned.]
    [The prepared statement of Hon. C.A. Dutch Ruppersberger 
follows:]

[GRAPHIC] [TIFF OMITTED] T9334.004

[GRAPHIC] [TIFF OMITTED] T9334.005

[GRAPHIC] [TIFF OMITTED] T9334.006

[GRAPHIC] [TIFF OMITTED] T9334.007

                                 <all>

</pre></body></html>
